U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                   Office of the Secretary


                     Commerce’s Office of
                 Acquisition Management
                Must Continue to Improve
                     Its Ongoing Oversight
          of Acquisition Savings Initiatives


                      Final Report No. OIG-12-001-A

                                     October 6, 2011




              FOR PUBLIC RELEASE




                       Office of Audit and Evaluation
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, D.C. 20230




October 6, 20 I I

MEMORANDUM FOR:                        Barry Berkowitz
                                       Senior Procurement Director and Director,
                                       Office of Acquisition Management (OAM)



FROM:                                  A~CEil=-J_ af{L
                                       Principal Assistant Inspector General for Audit
                                       and Evaluation

SUBJECT:                               Commerce's Office ojAcquisition Management Must
                                       Continue to Improve Its Ongoing Oversight ojAcquisition
                                       Savings Initiatives
                                       Final Report No. OlG-12-001-A

Attached is our final audit report on OAM's initiatives to reduce contract spending and high-risk
contracting practices as directed by the Office of Management and Budget (OMB), Our
objectives were to determine (1) the validity of the Department's estimated savings from these
initiatives, (2) its progress in implementing the initiatives, and (3) the extent that costs have been
reduced by implementing the initiatives.

Our review found that while Commerce has achieved some cost savings, several issues have kept
it from fully achieving the performance goals OMB established. Specifically, we found that the
baselines OAM used to calculate its targets for contract efficiency and reducing high-risk
contracts were inaccurate. We also found that a proportion of the savings reported by OAM is
unsupported or overestimated, and that total dollars for high-risk contracts actually increased
during the period we reviewed. OAM must overcome these and other challenges if it is to
provide adequate oversight of the Department's acquisitions and meet the goals set by OMB.

We received a response to the draft report from OAM, and we modified this final report based on
this response and on discussions with OAM leadership. The formal OAM response is included as
an appendix. The final report will be posted on OIG's website pursuant to section 8L of the
Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, within 60 days of the date of this
memorandum, please provide us with an action plan that responds to all of the report
recommendations.

We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to me at (202) 482-2754, and refer to the
report title in all correspondence,

Attachment
cc:	   Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration
       Michael L. Palensky, Chief, Acquisition Division, Census Bureau
       Cecelia Royster, Chief, Acquisition Management Division, NIST
       Mitchell J. Ross, Director, Acquisition and Grants Management Office, NOAA
       Kate Kudrewicz, Director, Office of Procurement, USPTO
       Darryl Anderson, Director, Commerce Acquisition Solutions Division
                                 Report In Brief
                                        U.S. Department of Commerce Ofﬁce of Inspector General
                                                                  October 6, 2011


Why We Did This Review               Commerce’s Ofﬁce of Acquisition Management Must
The Department of Commerce
                                     Continue to Improve Its Ongoing Oversight of Acquisition
submitted a presidentially           Savings Initiatives (OIG-12-001-A)
mandated acquisition savings
improvement plan to the Ofﬁce
of Management and Budget
(OMB) in November 2009. The
                                 What We Found
Commerce Ofﬁce of Acquisi-       While the Department has achieved some savings in its plan to improve contracts and acquisition
tion and Management (OAM)        practices, implementation problems and oversight challenges limited the Department’s ability to
assumed oversight of the plan’s  produce desired results. Speciﬁcally, we found the following:
implementation—which entailed
reducing contract spending           • 	 Baseline costs were unsupportable and inaccurate. The Department later revised both
costs by about $39.5 million per          baselines, but the baseline for overall contract spending still appears to be inaccurate due
year in FY 2010 and 2011 and              to OAM’s interpretation of OMB’s direction regarding adjustments for spending anoma-
decreasing the use of high-risk           lies.
contracts.                           • 	 The magnitude of cost savings is uncertain and high-risk contracts increased. The Depart-
This report presents the results          ment claimed cost savings of several million dollars. However, the magnitude of cost savings
of our audit on the (1) validity          achieved to date is uncertain because a large amount of the savings are unsupported or over-
of the Department’s estimated             estimated,   and controls used to develop the methods for estimating savings are inadequate
savings from these initiatives,           and   not well-deﬁned.  In addition, while the percentage of high-risk contracts decreased in FY
(2) Department’s progress in              2010,   the dollar value of these contracts actually increased from 2008 to 2010.
implementing the savings initia- OAM will need to continue managing the acquisition savings plan implementation. In its oversight,
tives, and (3) extent that costs however, OAM has relied heavily on voluntary information and coordination with the operating
have been reduced by imple-      units’ procurement ofﬁces, without adequate controls. We found that OAM
menting the savings initiatives.
                                     • 	 routinely accepted procurement ofﬁce information without veriﬁcation or asking for sup-
                                          porting data,
Background                              •	   did not maintain adequate documentation to support facts and ﬁgures in its November
In March 2009, the President                 2009 report to OMB, and
directed federal agencies to take       •	   did not capture information to track the savings attributable to its initiatives and ensure the
immediate steps to achieve real,             Department realized high-risk-contract reductions.
sustainable improvements in
contract processes. Speciﬁcally,     Since June 2010, the Department has improved its acquisition savings oversight, documentation
agency efforts would involve (1)     requirements, and validation processes—in part by reviewing how the Department plans and reports
cutting contract costs by using      its acquisition savings. A new Director of Acquisition Management—hired in February 2011—has
smarter, money-saving practices      further overhauled the review, validation, and reporting processes to ensure that savings are properly
and improving contractor over-       measured, veriﬁed, and documented.
sight, as well as (2) reducing the
use of high-risk contracts.
To facilitate immediate improve- What We Recommended
ment to federal contracting prac-
                                  We recommend that the Director of Acquisition Management
tices, in July 2009 the Ofﬁce of
Management and Budget (OMB)         • 	 implement adequate controls to ensure future acquisition savings baselines and targets are
directed each agency to (1) save         established as required by OMB,
3.5 percent of baseline contract    • 	 prescribe minimum documentation standards required from the operating units’ procure-
spending in FY 2010 and a fur-           ment ofﬁces to support claimed savings resulting from implementing initiatives for reducing
ther 7 percent in FY 2011 and (2)        contract spending and high-risk contracts, and
reduce the share of dollars obli-
gated to new high-risk contracts    • 	 establish a process to verify the accuracy and reliability of data collected by the procure-
in 2010 by 10 percent.                   ment ofﬁces and track ongoing and future initiatives with a primary objective of determining
                                         whether savings are actually realized.
U.S. Department of Commerce                                                                                                                      Final Report

Office of Inspector General                                                                                                                    October 6, 2011 



                                                                                            Contents


Introduction..................................................................................................................................... 1 

U                                                                   U




Findings and Recommendations ..................................................................................................... 3 

U                                                                               U




    I.
    U   U                               Baseline Costs Were Unsupportable and Inaccurate ........................................................... 3 

                                            U                                                               U




                A. The Baseline for Measuring Contract Efficiency Savings Is Not Supported ................... 3 

                U                               U               U                                                                          U




                B. The Baseline for Reducing High Risk Contracts Was Inaccurate ................................... 4 

                U                       U                   U                                                               U




    II. Magnitude of Cost Savings Is Uncertain and High-Risk Contracts Increased .................... 5 

    U       U                   U                                                                                                      U




                A. Reported Contract Efficiency Savings Were Uncertain ................................................... 5 

                U                               U               U                                                   U




                B. Total Dollars for High-Risk Contracts Increased While Percentage of New High-Risk 

                U                       U                   U




                Contracts Decreased ................................................................................................................ 6 

                                                                         U




    III.
    U                   U                           U   Acquisition Savings Initiatives Require Continuous OAM Management and Oversight 8 
                 U




    IV.
    U                       U                           Commerce Actions to Improve Ongoing and Future Savings Initiatives ........................ 9 

                                                        U                                                                          U




    V. Summary of Agency Comments and OIG Response ........................................................... 9 

    U               U               U                                                                           U




Appendix A: Objectives, Scope, and Methodology ..................................................................... 11 

U                                                                                                   U




Appendix B: Response to OIG Draft Report ................................................................................ 13 

U                                                                                            U
U.S. Department of Commerce                                                                                             Final Report

Office of Inspector General                                                                                           October 6, 2011 



                                                                       Introduction
                                                                       U




In March 2009, the President issued a memorandum directing agencies to become more fiscally
responsible in their contract actions and take immediate steps to achieve real and sustainable
improvements in contract processes. The President charged agencies with saving $40 billion a
year in contract spending through better acquisitions and practices and reducing the use of high-
risk contracts. This discipline was to be accomplished through two related efforts. First, agencies
were to focus on cutting contract costs by using smarter buying practices to save money—such
as strategic sourcing—and improving contractor oversight. Second, agencies were to reduce the
use of high-risk contracts that can lead to excessive costs. For example, agencies were
encouraged to reduce the risk of overspending by competing contracts that, in the past, had been
awarded on a sole-source basis, as well as rely more heavily on fixed-price contracts that create a
greater incentive for contractor efficiency.

To facilitate immediate improvement to federal contracting practices, in July 2009 the Office of
Management and Budget (OMB) directed each agency to develop an acquisition savings plan to
review its existing contracts and acquisition
practices and reduce contract spending by 7              OMB Acquisition Savings
percent by the end of FY 2011. 1 OMB also                      F   F




directed each agency to reduce the risk of                             Initiatives
overspending associated with noncompetitive
                                                   1. Save 3.5 percent of baseline contract
contract actions and cost-reimbursement
contracts. To meet this direction, agencies were        spending in FY 2010 and a further 7
required to reduce by 10 percent the share of           percent in FY 2011.
dollars obligated through (1) new contracts in
                                                   2. Reduce the share of dollars obligated to
FY 2010 awarded with inadequate competition,
                                                        new high-risk contracts* in 2010 by 10
such as those awarded without any competition
                                                        percent.
or through a competition that attracted only one
bidder, or (2) contracts with insufficient cost    * OMB defined “high-risk” contracts as those awarded
control, including time-and-materials or labor-    noncompetitively or where only one bid was received
hour and cost-reimbursement contracts.             in response to a solicitation; cost-reimbursement
                                                                                 contracts; and time-and-materials and labor-hour
The Department of Commerce submitted its           contracts.
acquisition savings improvement plan to OMB
in November 2009, and the Office of Acquisition and Management (OAM) was made
responsible for overseeing the Department’s implementation of the initiatives. OAM is a
component of the Office of the Chief Financial Officer and Assistant Secretary for
Administration; the OAM Director is also the Department’s Senior Procurement Executive.

The plan Commerce submitted to OMB identified specific actions to reduce contract spending
costs by about $39.5 million per year in FY 2010 and 2011 and decrease the use of high-risk
contracts. This report presents the results of our audit on the (1) validity of the Department’s
                                                            
1
  OMB Memorandum M-09-25, Improving Government Acquisition, dated July 29, 2009, and supplemental frequently asked
questions (FAQ) posted by OMB October 6, 2009. OMB later clarified, during the review of agencies’ FY 2012 budget
proposals, that the savings targets were to be 3.5 percent in FY 2010 and 7 percent in FY 2011.


                                                                            1

U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                          October 6, 2011 



estimated savings from these initiatives, (2) Department's progress in implementing the
initiatives, and (3) extent that costs have been reduced by implementing the initiatives. Appendix
A outlines the scope and methodology we used in this audit.

While the Department has achieved some savings, implementation problems and oversight
challenges limited the Department’s ability to produce the desired results. Specifically, we found
that

   •	 The Department’s initial targets for reducing both contract spending and high-risk
      contracts were unsupportable and inaccurate. The Department later revised both
      baselines, but the baseline for overall contract spending still appears to be inaccurate due
      to OAM’s misunderstanding of OMB’s direction regarding adjustments for spending
      anomalies.

   •	 The Department made limited progress in implementing OMB’s acquisition savings
      initiatives.

   •	 Savings reported to OMB for reductions in contract spending in FY 2010 were inaccurate
      or unsupported, and methods for estimating savings were faulty.

   •	 While the ratio of new high-risk contracts to total new contract awards did decrease, the
      Department did not reduce dollars obligated to new high-risk contracts in FY 2010.

   •	 OAM did not effectively monitor the progress and expected benefits of its savings
      initiatives.




                                                2

U.S. Department of Commerce                                                                                        Final Report

Office of Inspector General                                                                                      October 6, 2011 



                                                           Findings and Recommendations
                                                           U




I.         Baseline Costs Were Unsupportable and Inaccurate

Baseline cost is an integral factor in the calculation of estimated savings targets. Because OAM
does not have adequate controls over processes used to collect data from Commerce operating
units’ procurement offices, the baselines established for contract spending and high-risk
contracting in the November 2009 acquisition savings plan were unsupportable and inaccurate.
As a result, the savings targets for reducing both contract spending and high-risk contracts were
significantly misstated. The lack of verifiable and accurate and baseline data makes it difficult to
project and measure cost savings and reductions in high-risk contracts. This leaves the
Department at risk of not achieving the goals and objectives required by OMB and the
administration.

A. The Baseline for Measuring Contract Efficiency Savings Is Not Supported
OMB guidance 2 states that agencies were to use FY 2008 dollars obligated, as reported in the
                              F   F




Federal Procurement Data System (FPDS), to establish an initial baseline value for contract
spending. The guidance permitted agencies to adjust this baseline for anomalies, such as
significant one-time spikes in spending that occurred or are expected to occur in the years for
which savings are estimated. To identify the savings target for FY 2010 agencies were to
multiply the adjusted baseline by 3.5 percent, and by 7 percent for the FY 2011 target.

We found the initial baseline for contract spending included in the Department’s November 2009
plan was understated by about 30 percent, or approximately $700 million, thus misstating the
savings targets for both 2010 and 2011. OAM determined that the initial baseline for contract
spending was approximately $1.6 billion and, after identifying anomalies of approximately
$470.9 million, 3 the adjusted baseline was valued at about $1.13 billion. OAM calculated its
                              F   F




annual savings targets of $39.5 million for FY 2010 and 2011 by multiplying the adjusted
baseline value by 3.5 percent, even though OMB’s direction was to use 7 percent for the FY
2011 target. In response to our request, OAM could not re-create or support how it had
determined the initial baseline.

In a January 13, 2011, memorandum, OAM advised operating unit procurement officials and
chief financial officers that it had revised the baseline for computing savings targets. The
memorandum indicated that OMB had changed its guidance and wanted agencies to use
unadjusted contract spending—that is, without adjustment for spending anomalies—as reported
in FPDS as the basis for computing savings targets. 4 The new baseline—approximately $2.3
                                                                             F   F




billion 5 —represented an increase of almost $1.2 billion from the figure included in the
            F   F




November 2009 acquisition savings plan. As a result of the revision, the Department’s annual


                                                            
2
   OMB Memorandum M-09-25, supplemental FAQ, and subsequent clarification.

3
   This amount is composed of $267.6 million for the significant spike caused by obligations in large decennial census contracts 

and about $203.3 million for a variety of National Oceanic and Atmospheric Administration (NOAA) transactions.  

4
   We confirmed with OMB that it had not changed its guidance and that anomalies were to be excluded from the baseline.
 
5
   OIG did not assess the validity of the revised baseline. 



                                                                        3

U.S. Department of Commerce                                                                                          Final Report

Office of Inspector General                                                                                        October 6, 2011 



savings targets for FY 2010 and 2011 increased significantly. Table 1 illustrates OAM’s initial
and revised baselines and savings targets.

                   Table 1. Contract Efficiency Saving Baseline and Target
                                                                   (Dollar values in millions)
                                                                   November 2009                 January 2011
                                                                        Baseline                     Baseline         Difference
Unadjusted Contract
Spending                                                                   $1,598.4                  $2,318.4             $720.0
Anomalies                                                                    $470.9                      $0.0             $470.9
                                                                                                               a
Savings Baseline                                                           $1,127.5                 $2,318.4            $1,190.9
FY 2010 Savings Target
(3.5% of baseline)                                                             $39.5                    $81.1               $41.6
FY 2011 Savings Target
(7% of baseline)                                                               $78.9                   $162.3               $83.4
Source: Department of Commerce acquisition savings plan, November 2009, and OAM memorandum
dated January 13, 2011
a
  Unlike the November 2009 baseline, the January 2011 baseline was not adjusted for anomalies
because OAM misunderstood OMB’s guidance.

As the table illustrates, unadjusted contract spending differed by more than $700 million from
the November 2009 acquisition savings plan to the January 2011 baseline revision. In a March
25, 2011, memorandum to OIG, OAM acknowledged that the November 2009 baseline was
incorrect; OAM developed the baseline, with input from Commerce operating unit chief
financial officers, using adjusted FY 2008 spending data from the Department’s Office of
Budget, rather than using FPDS data as OMB guidance required. OAM chose to use this data due
to the difficulty in “identifying accurate funding information for each operating unit given a lack
of granularity in FPDS data.” OAM acknowledged that it did not reconcile the Office of Budget
data with FPDS before submitting the acquisition savings plan. As shown in table 1, after
accounting for the anomaly adjustments in the November 2009 plan that were not made in the
January 2011 revision because OAM incorrectly believed that OMB had changed its guidance,
the difference in baseline spending for computing savings targets was almost $1.2 billion.

B. The Baseline for Reducing High Risk Contracts Was Inaccurate
OMB defined high-risk contracts as (1) those awarded noncompetitively, including situations in
which only one bid was received; (2) cost-reimbursable contracts; and (3) time-and-materials and
labor-hour contracts. OMB guidance 6 directed agencies to use dollars obligated under these
                                                               F   F




contract types in FY 2008 as the baseline to determine high-risk-contract reduction targets. In the
November 2009 plan, OAM reported that the FY 2008 total value of high-risk contracts was
approximately $1.039 billion. This baseline formed the basis for the Department’s target to
reduce high-risk contracts by $103.9 million, or 10 percent, in FY 2010.

We found that the baseline included in the November 2009 plan was more than three times the
actual dollars obligated by the Department for high-risk contracts awarded in FY 2008. OAM

                                                            
6
     OMB Memorandum M-09-25 and supplemental FAQ. 


                                                                               4

U.S. Department of Commerce                                                                                         Final Report

Office of Inspector General                                                                                       October 6, 2011 



could not explain how it determined this number. After receiving additional guidance from OMB
on identifying high-risk contracts, OAM ultimately revised its FY 2008 baseline for high-risk
contracts to $330.2 million. This resulted in a decrease of almost $71 million in the high-risk-
contract reduction target—from $103.9 million to $33.02 million. These events reveal that
acquisition savings initiatives are still being refined even within OMB, and suggest that
additional guidance may follow as these initiatives mature.


II.         Magnitude of Cost Savings Is Uncertain and High-Risk Contracts Increased

The Department has claimed cost savings of several million dollars resulting from the
implementation of several initiatives. However, the magnitude of cost savings achieved to date is
uncertain because much of the savings is unsupported or overestimated, and controls used to
develop the methods for estimating savings are inadequate and not well-defined. These factors
led to inconsistencies in the savings initiative results reported to OMB. Despite understating the
savings targets in the November 2009 plan, Commerce still fell short of meeting its savings
target in FY 2010. Also, even though changes to the baseline reduced Commerce’s target for
high-risk-contract reduction from $103.9 million to $33.02 million, the Department did not
identify a high-risk contract reduction or elimination in FY 2010. The dollar value of high-risk
contracts actually increased significantly from 2008 to 2010.

A. Reported Contract Efficiency Savings Were Uncertain
We reviewed approximately $23.8 million (72 percent) of the $33.1 million in savings actions
reported to OMB for FY 2010 and found all of the claims to be questionable, unsupported, or
overestimated. In one case, the Census Bureau reported that it had saved approximately $17.9
million 7 by consolidating its requirement for 1,017 fingerprint scanners needed to screen
              F   F




applicants for decennial census positions into a large, nationwide acquisition action. Through
market research, Census found that quantity discounts were routinely offered for this type of
equipment. Based on this research, Census believed it would achieve a greater price discount by
consolidating the acquisition into a single large buy, rather than a series of smaller purchases at
regional levels.

To compute the $17.9 million of savings, Census calculated the difference between the unit price
of $20,610 listed on the GSA Advantage schedule for acquiring one scanner and the discounted
price of $2,997 offered by the vendor for acquiring a total of 1,017 scanners. Census then
multiplied the difference ($17,613) by 1,017 scanners to achieve a claimed savings of $17.9
million.

We disagree with the methodology used by Census to compute the savings. A more realistic
value for the savings would be the difference between what Census would have spent for the
scanners in the absence of the savings initiative—based on prices it would have received for
smaller-quantity, regional purchases—and what Census ultimately paid as a result of pursuing
the initiative to consolidate the acquisitions into a single nationwide action. Since Census’s own


                                                            
7
     This claim accounted for more than half of the $33.1 million in total savings reported to OMB for FY 2010.


                                                                  5

U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                          October 6, 2011 



market research found that quantity discounts were routinely available, it is unreasonable to
compute savings based on an undiscounted, single-unit list price.

In addition to the Census savings claim, we also examined $1.7 million in FY 2010 savings
actions reported by the National Oceanic and Atmospheric Administration (NOAA) and $4.2
million claimed by the U.S. Patent and Trademark Office (USPTO). NOAA’s claimed savings
were for anticipated conversions of contractors to government employees; however, NOAA
officials told us that only $484,000 of the $1.7 million initially claimed represented verifiable
savings that occurred in FY 2010. The $4.2 million USPTO savings claim was based on actions
to reduce contract spending for support of USPTO’s technology centers and other support
services contracts. A USPTO procurement official informed us that the $4.2 million in savings
was calculated as dollars that were not obligated for contract support. However, USPTO did not
have controls in place to monitor its claimed savings and could not provide documentation to
support this assertion.

Finally, even though the initial savings target in the November 2009 acquisition savings plan was
significantly understated, the Department still fell short of the target. The savings reported to
OMB for FY 2010 were approximately $33.1 million—about $6.4 million less than the $39.5
million target established in the November 2009 plan. Furthermore, as noted in the earlier
examples, questions about the accuracy and reasonableness of the $33.1 million figure raise
serious concerns about the Department’s progress toward achieving the cost reductions directed
by the President and OMB.

These events highlight the challenges OAM must overcome as it continues to accumulate and
validate acquisition savings information from decentralized departmental sources.

B. Total Dollars for High-Risk Contracts Increased While Percentage of New High-Risk
   Contracts Decreased
We did not identify any reductions in the dollar value of high-risk contracts in FY 2010. Dollars
obligated for new high-risk contracts in FY 2010 actually increased by more than 43 percent
from FY 2008 levels. However, Commerce did realize a reduction in the ratio of new high-risk
contracts to total new awards in FY 2010, as reported in the FPDS.

As part of the guidance for preparing acquisition savings plans, OMB permitted agencies to
describe both specific high-risk-contract reductions and strengthened practices to limit the use of
high-risk contracts. The Department’s November 2009 plan targeted four areas in which to
reduce the dollars obligated for new high-risk contracts by approximately $23.5 million in FY
2010—about $80 million less than the Department’s initial target of $103.9 million.

OAM initially reported one high-risk-contract reduction action in FY 2010: $328,000 from
converting a time-and-materials contract to a fixed-price contract. However, in April 2011, OAM
notified OMB’s Office of Federal Procurement Policy that the reduction should not have been
claimed because the associated contract was awarded in FY 2011. Also, OAM did not adequately
monitor the progress of the operating units’ procurement offices in the targeted areas mentioned
in the November 2009 acquisition savings plan to determine whether reductions in high-risk




                                                 6

U.S. Department of Commerce                                                                                     Final Report

Office of Inspector General                                                                                   October 6, 2011 



contracts were realized. Ultimately, OAM did not report any specific actions to reduce high-risk
contracts for FY 2010.

In May 2010, OMB provided agencies with revised guidance on how to consistently identify
high-risk contracts from FPDS data. After applying the new guidance, OAM revised its FY 2008
baseline total of dollars obligated on new high-risk contracts to approximately $330.2 million. 8                           F   F




Using the revised baseline, the Department’s new target for reducing the dollars obligated
through new high-risk contracts in FY 2010 would be $33.02 million.

But Commerce’s new high-risk contracts actually increased from FY 2008 to 2010, as discussed
below. In spite of the increase, Commerce complied with OMB’s guidance and met the reduction
targets based on a calculated 15.4 percent decrease in the value of high-risk contracts as a
percentage of total new contracts. Documentation provided by OAM showed that new high-risk
contracts awarded in FY 2008 represented 54.9 percent of the total dollar value of new contracts
that year while, in FY 2010, high-risk contracts were 39.5 percent of new awards. Table 2
compares new high-risk contracts with total new awards in FY 2008 and 2010.

                                           Table 2. New High-Risk Contracts as a
                                            Percentage of New Contract Awards
                                                                 (Dollar values in millions)

                                                                                                            High-Risk
                                                                                                        Contracts as a
                                                           Total New Contract          New High-Risk    Percentage of
                                                                      Awards               Contracts    New Contracts

        FY 2008                                                        $601.4                  $330.2                54.9

        FY 2010                                                      $1,198.4                  $473.2                39.5

        Increase/(Decrease)
                                                                       $597.0                  $143.0              (15.4)
        from 2008 to 2010

        Source: OIG, compiled from OAM data

As shown in table 2, total dollars obligated for new high-risk contracts in FY 2010 increased by
$143 million, or more than 43 percent, from FY 2008, while the ratio of new high-risk contracts
to all new contracts decreased. Although not stated directly in OMB Memorandum M-9-25,
OMB has since indicated that an agency could be seen as having met the required 10 percent
reduction requirement based on demonstrating a reduction in the ratio of new high-risk contracts
to all new contract awards.

Although OMB’s clarification indicates that Commerce achieved the required reduction in high-
risk contracts—a 15.4 percent decrease in the ratio of new high-risk contracts to total new
contract awards—Commerce has still awarded $143 million more in new high-risk contracts in
FY 2010 than it did in FY 2008. The percentage reduction highlighted by OAM is the result of a
                                                            
8
 The revised baseline of $330.2 million represents a decrease of more than $700 million from the high-risk baseline of
$1.039 billion included in the Department’s November 2009 acquisition savings plan.


                                                                             7

U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                          October 6, 2011 



near doubling in the value of new contracts—from $601.4 million in FY 2008 to $1,198.4
million in FY 2010. Since Commerce did not report a single action in which a high-risk contract
was reduced, it is unclear whether the Department achieved the required reduction as a result of
direct efforts to reduce high-risk contracts or simply because the dollar value of new contracts
nearly doubled from 2008 to 2010.


III.	   Acquisition Savings Initiatives Require Continuous OAM Management and
        Oversight

OAM will need to continue to manage the implementation of the acquisition savings plan
initiatives. Two of OAM’s responsibilities are to

    •	 Provide appropriate oversight in procurement management to help ensure that the
       Department’s program offices are effectively and efficiently managing the procurement
       process; and

    •	 Ensure that procurement organizations focus on measurable results.

In its oversight, however, OAM has relied heavily on voluntary information and coordination
with the operating units’ procurement offices, without adequate controls. We found that OAM

    •	 Routinely accepted information from the operating units’ procurement offices without
       verification or asking for supporting data. OAM also did not follow up with the
       procurement offices to verify the reliability and accuracy of reported information. For
       example, OAM reported savings of $328,000 in FY 2010 from converting a high-risk
       contract to a firm-fixed-price contract; OAM later had to withdraw the claim when it
       realized the reported action actually took place in FY 2011. Savings should be claimed in
       the period that the contract was awarded.

    •	 Did not maintain adequate documentation to support facts and figures in the November
       2009 acquisition savings plan or for claimed savings reported to OMB. For example,
       OAM did not maintain sufficient documentation showing how the initial baselines for
       reducing contract spending and high-risk contracts were established.

    •	 Did not capture information to track the savings attributable to its initiatives and ensure
       the Department realized high-risk-contract reductions.

Additionally, in some cases, OAM made mathematical errors when manually calculating the
savings reported to OMB. The lack of quality control for these calculations significantly limits
the Department’s ability to determine the overall effectiveness of the acquisition savings
initiatives.

 




                                                 8

U.S. Department of Commerce                                                                 Final Report

Office of Inspector General                                                               October 6, 2011 



    IV.      Commerce Actions to Improve Ongoing and Future Savings Initiatives

In June 2010, the Secretary, in an effort to improve the quality of Commerce's acquisitions,
initiated a comprehensive review of the Department’s acquisition processes. Since then,
Commerce has made important improvements to its acquisition savings oversight,
documentation requirements, and validation processes.
OAM officials told us that in response to the findings identified in the review, Commerce began
to reform its acquisition processes, including a review of how the Department plans and reports
its acquisition savings. This effort is being led by a newly appointed Director of Acquisition
Management—hired in February 2011—who is overhauling the review, validation, and reporting
processes to ensure that savings are properly measured, verified, and documented. In addition, in
April 2011, OAM launched a more substantial process for identifying, reviewing, and validating
acquisition savings. The process was established collaboratively with senior-level Department
managers and operating unit procurement officials. OAM officials stated that the savings are
carefully measured and tracked and include four levels of review and control, with emphasis on
appropriate visibility at all organizational levels. In addition, the reported results are subject to 
audit before being claimed as acquisition savings. These results do not suggest that OIG
considers all required controls, documentation standards and processes over the reliability of
acquisition savings data to be complete. As a result, we are making three recommendations in the
following section.

Recommendations
U




We recommend that the Director of Acquisition Management

          1.	 Implement adequate controls to ensure future acquisition savings baselines and targets
              are established as required by OMB.

          2.	 Prescribe minimum documentation standards required from the operating units’
              procurement offices to support claimed savings resulting from implementing initiatives
              for reducing contract spending and high-risk contracts.

          3.	 Establish a process to verify the accuracy and reliability of data collected by the
              procurement offices and track ongoing and future initiatives with a primary objective of
              determining whether savings are actually realized.
 
V.        Summary of Agency Comments and OIG Response

    Rather than addressing individual recommendations, OAM provided general comments on the
    report overall. We have incorporated various comments provided by OAM both formally and
    informally in preparing this final report.

    In its response, OAM states that the OIG acknowledges that all recommendations have been
    implemented. We did not make this assertion in the original draft and have updated Section IV of
    this report to clarify our position. As mentioned in Section IV, OAM has taken actions to
    improve its acquisition savings initiatives. Before considering implementation to be complete,



                                                      9

U.S. Department of Commerce                                                         Final Report

Office of Inspector General                                                       October 6, 2011 



however, we require that OAM deliver a formal audit action plan within 60 days of receipt of
this report, with target dates for the resolution of each recommendation that is verified as
complete by our office. OAM’s response to our draft report is included as appendix B. 




                                              10 

U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                          October 6, 2011 



                    Appendix A: Objectives, Scope, and Methodology
                    U




We performed this review under authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, August 31, 2006. We conducted our audit in accordance
with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives.

We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. Our objectives were to determine the (1) validity of
the Department’s estimated savings from these initiatives, (2) Department's progress in
implementing the savings initiatives, and (3) extent that costs have been reduced by
implementing the savings initiatives. To accomplish our objectives, we

   •	 Reviewed the Department’s practices used to implement and report its savings initiatives
      and high-risk contract reductions to the Office of Management and Budget (OMB). We
      assessed those practices against criteria contained in OMB and Department guidance.

   •	 Interviewed a range of acquisition and contracting officials involved in the acquisition
      savings plan initiative, including OMB officials, the Senior Procurement Executive,
      chiefs of contracting and staff from the operating units’ procurement offices, and staff
      from the Office of Acquisition Management (OAM) to determine their processes for
      identifying savings initiatives and collecting and reporting that information to OMB. We
      also followed up with agency officials to clarify our initial findings.

   •	 Reviewed the accuracy of the savings reported to OMB by judgmentally selecting higher-
      valued savings initiatives and analyzed documentation used to support savings claims and
      reductions in high-risk contracts.

As discussed throughout this report, the Department did not maintain an adequate system of
management controls over the accumulation and reporting of acquisition savings data. Therefore,
we did not conduct tests of these controls for the purpose of placing reliance on them. While
computer-processed data were considered in developing audit conclusions—federal procurement
data system information to compute baselines for establishing savings targets—we did not rely
on the absolute accuracy of this data and therefore did not assess the validity of computer-
processed data. Instead, computer-processed data were cited only to the extent they supported
our conclusion that the Department did not effectively implement OMB’s savings initiatives.

We also coordinated our work with the Government Accountability Office (GAO). In a
December 17, 2010, memorandum to Commerce’s Chief Financial Officer and Assistant
Secretary for Administration, GAO announced it was beginning a government-wide review of
agency acquisition savings strategies. GAO’s objectives were to determine (1) the status of
agencies' efforts to save $40 billion per year and to reduce use of high-risk contracts, (2) what
acquisition and contracting strategies agencies used to identify opportunities for the savings and
what strategies have been shown to be most effective, and (3) how these strategies might be
spread across government to increase savings.



                                                11 

U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                          October 6, 2011 



Throughout this review, the OIG has communicated areas for improvement in Commerce’s
acquisition savings initiatives. We also discussed our preliminary conclusions and
recommendations with OAM officials in May 2011 and again prior to issuing our initial draft
report. As a result of these collective efforts, OAM is taking action to improve its monitoring of
the acquisition savings plan initiative.

 




                                                12 

U.S. Department of Commerce                                         Final Report

Office of Inspector General                                       October 6, 2011 



                       Appendix B: Response to OIG Draft Report
                       U




 




                                          13 

U.S. Department of Commerce            Final Report

Office of Inspector General          October 6, 2011 





(1200000-109)




                              14 

